HHS/OIG,  Audit - "Cahaba Government Benefit Administrators Final
Cost Proposals for Fiscal Years 2002 Through 2004," (A-04-05-04012)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Cahaba Government Benefit
Administrators Final Cost Proposals for Fiscal Years 2002 Through 2004," (A-04-05-04012)
October 25, 2006
Complete Text of Report is available in PDF format (796 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our audit were to determine: (1) whether Cahaba Government Benefit Administrators (GBA) had established effective controls over accounting for and reporting administrative costs incurred under the Medicare program and (2) whether costs claimed in the Final Administrative Cost Proposals (FACP) were reasonable, allowable, and allocable in accordance with part 31 of the Federal Acquisition Regulation and Appendix B of the Medicare contract.
Except for amounts claimed as pension costs and depreciation, which are being audited separately and with respect to which we drew no conclusions in this audit, we found that Cahaba GBA had an effective system of controls over accounting for and reporting administrative costs. Also, the amounts claimed as Medicare reimbursement on the FACPs for the period October 1, 2001, through September 30, 2004, satisfied contract terms and applicable regulations.